         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Audit Report




       EPA Needs to Strengthen Its
       Privacy Program
       Management Controls

       Report No. 2007-P-00035

       September 17, 2007
Report Contributors:	            Rudolph M. Brevard
                                 Charles Dade
                                 Corey Costango




Abbreviations

CIO          Chief Information Officer
EPA          U.S. Environmental Protection Agency
FOIA         Freedom of Information Act
OEI          Office of Environmental Information
OIG          Office of Inspector General
OMB          Office of Management and Budget
PII          Personally Identifiable Information
                                                                                                        2007-P-00035
                       U.S. Environmental Protection Agency                                        September 17, 2007
                       Office of Inspector General


                       At a Glance

                                                                        Catalyst for Improving the Environment

Why We Did This Review            EPA Needs to Strengthen Its Privacy Program
We sought to determine what       Management Controls
steps the U.S. Environmental
Protection Agency (EPA) took       What We Found
to protect Personally
Identifiable Information.         Although EPA has made progress toward establishing its Privacy Program, the
We also sought to determine       program needs more emphasis. EPA needs to set up a more comprehensive
the extent to which EPA put in    management control structure to govern and oversee the program. In particular,
place a management structure      EPA needs to establish goals and activities for the Privacy Program and measure
over the Agency’s Privacy         progress. Further, EPA needs to update its Privacy Program policies and establish
Program.                          processes to manage and make these policies available to responsible EPA
                                  personnel. Also, EPA needs to set up compliance and accountability processes to
                                  ensure adherence with key Privacy Program tenets.
Background
                                  These weaknesses existed because of the low priority EPA managers placed on the
Congress passed the Privacy       Privacy Program. A major loss of privacy information could result in substantial
Act of 1974 to protect            harm, embarrassment, and inconvenience to individuals. It could lead to identity
individual privacy. The Act       theft or other fraudulent use of the information, which in addition to harming the
sets forth requirements for       individuals involved could be costly to the Agency and its reputation. Questions
Federal agencies when they        on EPA’s management of privacy data could also cast doubts over the processes
collect, maintain, or             EPA uses to oversee protection of the confidential business information it collects.
disseminate information about
individuals. Personally
Identifiable Information is any    What We Recommend
information about an
individual maintained by an       We recommend that the EPA Office of Environmental Information’s Director,
agency – including                Office of Information Collection, establish goals and activities for the Agency’s
employment, medical, and          Privacy Program. The Director should also establish and use performance
financial information – that      measures for the program. Further, the Director should update the Agency’s
can be used to trace an           Privacy Program policies and procedures, establish a process for managing
individual’s identity.            compliance, and monitor compliance. We also recommend that this Director
                                  work with the Office of Administration and Resources Management to develop
                                  sample cascading goals and objectives that EPA managers can use to establish
                                  Privacy Program accountability processes. The Agency agreed with the report’s
For further information,
contact our Office of
                                  findings and recommendations.
Congressional and Public
Liaison at (202) 566-2391.

To view the full report,
click on the following link:
www.epa.gov/oig/reports/2007/
20070917-2007-P-00035.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                       September 17, 2007

MEMORANDUM

SUBJECT:       EPA Needs to Strengthen Its Privacy Program Management Controls
               Report No. 2007-P-00035


FROM:          Patricia H. Hill
               Assistant Inspector General for Mission Systems

TO:            Mark Luttner
               Director, Office of Information Collection
               Office of Environmental Information

               Kenneth Venuto
               Director, Office of Human Resources
               Office of Administration and Resources Management


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $135,942.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed upon
actions, including milestone dates. We have no objections to the further release of this report to
the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Rudolph M. Brevard,
Director for Information Resources Management Assessments, at (202) 566-0893 or
brevard.rudy@epa.gov.
                      EPA Needs to Strengthen Its Privacy Program Management Controls




                                         Table of Contents 

Purpose ................................................................................................................................   1     


Background .......................................................................................................................         1 


Noteworthy Achievements..................................................................................................                  1     


Scope and Methodology .....................................................................................................                2     


Results of Review ................................................................................................................         2     


             EPA Needs to Identify Program Goals and Activities and
             Measure Progress ..................................................................................................           3

             EPA Needs to Update Policy and Establish
             Change Management and Distribution Processes ..................................................                               3

             EPA Needs to Establish Compliance and Accountability Processes ......................                                         4     


             Weaknesses Represent Internal Control Issues .....................................................                            5     


Recommendations...............................................................................................................             5     


Agency Response and OIG Comments .............................................................................                             6     


Status of Recommendations and Potential Monetary Benefits ......................................                                           7




Appendices
     A       OEI’s Office of Information Collection Responses to Draft Report..................                                            9

     B       Office of Administration and Resources Management’s
             Office of Human Resources Response to Draft Report.....................................                                       13

     C       Distribution ...........................................................................................................      15
Purpose
We sought to determine what steps the U.S. Environmental Protection Agency (EPA) took to
protect Personally Identifiable Information (PII). We also sought to determine the extent to
which EPA put in place a management structure over the Agency’s Privacy Program.

Background
Congress passed the Privacy Act of 1974 to protect individual privacy. The Act sets forth the
requirements Federal agencies must follow when they collect, maintain, or use information about
individuals. The Act requires Federal agencies to respect the privacy of individuals. In this
regard, agencies must collect the least amount of information necessary and put in place
safeguards to protect the information. Agencies must also allow individuals to inspect their files
and correct any erroneous information.

The Office of Management and Budget (OMB) defines PII as any information about an
individual maintained by an agency that can be used to distinguish or trace an employee’s
identity. This includes, but is not limited to, employment, medical, and financial information;
social security numbers; date and place of birth; mother’s maiden name; and any other personal
information that is linked or linkable to an individual.

EPA privacy officials stated that EPA’s Office of General Counsel and Office of Administration
and Resources Management were responsible for the Privacy Act function prior to Office of
Environmental Information (OEI) taking over in 1999. The current EPA privacy policies were
established in 1986 and 1987. Further, EPA privacy officials stated that OEI initiated the
groundwork for putting in place a Privacy Program by appointing a Privacy Act Officer in 1999.
EPA also designated a Senior Agency Official for Privacy, who has overall responsibility and
accountability for ensuring the Agency’s implementation of information privacy protections,
including the Agency’s full compliance with Federal laws, regulations, and policies relating to
information privacy. OEI tasked its Records, Freedom of Information Act (FOIA), and Privacy
Branch with managing the program. The branch is part of the OEI’s Office of Information
Collection. The branch develops EPA’s Privacy Program policies and procedures and oversees
implementation of the program.

Noteworthy Achievements
In April 2003, privacy officials indicated OEI launched EPA's first Privacy Act Website and
began to raise privacy awareness through training sessions, briefings, and conferences. In June
2006, EPA established a PII workgroup in response to OMB memorandums regarding PII
protection. EPA privacy officials also said they established the workgroup to ensure that EPA
did everything reasonably possible to protect itself from the accidental or unauthorized release of
PII. In addition, the Chief Information Officer (CIO) issued “CIO Policy Transmittal 06-011:
Interim Policy and Procedures for Protecting Personally Identifiable Information (PII),” to
address PII protection concerns raised by OMB.




                                                 1

Scope and Methodology

We conducted this audit from January through April 2007 at EPA headquarters in Washington,
DC, in accordance with generally accepted government auditing standards. To determine steps
EPA took to protect PII, we conducted a survey with EPA program and regional offices related
to their efforts to put into place processes for protecting PII. Preliminary survey results indicated
this area requires further review. After preliminary research, we decided to suspend further work
on this objective and to examine this area further during the Fiscal Year 2007 Federal
Information Security Management Act audit.

To review the Privacy Program management structure, we interviewed EPA officials responsible
for the Agency’s Privacy Program. We questioned EPA Privacy Program personnel regarding
the following management control areas:

   •	   Policies and procedures
   •	   Roles and responsibilities
   •	   Performance measurement
   •	   Program compliance
   •	   Accountability

We conducted followup interviews, and reviewed relevant documents. Based on information
collected during preliminary research, we identified several fundamental weaknesses that require
management's immediate attention. Therefore, we decided not to proceed into field work for this
objective area and are summarizing our results in this report.

We had not performed prior audits related to the management controls of EPA’s Privacy
Program. As such, there were no recommendations to follow up on during this audit.

Results of Review
EPA privacy officials stated that EPA is in the process of updating its Privacy Program.
However, the Agency needs to put into place a more comprehensive management control
structure to govern and support its Privacy Program. In particular, EPA needs to:

   •	 Identify the Privacy Program’s key goals and activities, and establish performance
      measures to assess their progress.
   •	 Update its Privacy Program policies and procedures, and establish processes to manage
      and make all privacy policies available to EPA personnel.
   •	 Put into place a process to monitor the Privacy Program.

According to Agency officials, these program weaknesses existed because EPA placed a lower
priority on the Privacy Program compared to other Office of Information Collection
requirements. Activities to strengthen the Privacy Program’s internal control structure remain
unfinished because of the lack of committed resources or management support. Thus, EPA lacks
key processes to proactively manage threats that put the Agency’s privacy data at risk. A major



                                                 2

loss of privacy information could result in substantial harm, embarrassment, and inconvenience
to individuals. It could lead to identity theft or other fraudulent use of the information, which in
addition to harming the individuals involved could be costly to the Agency and its reputation.
Questions on EPA’s management of privacy data could also cast doubts on the processes EPA
uses to oversee protection of the confidential business information it collects.

EPA Needs to Identify Program Goals and Activities and Measure Progress

EPA needs to identify the Privacy Program’s key goals and activities, and establish performance
measures to assess their progress.

During discussions with EPA privacy officials, the officials identified some informal key goals
and activities for establishing and overseeing the EPA Privacy Program. However, these key
goals and activities were not identified in any formal policy or strategy document. Without
formal key goals and activities to guide the Privacy Program, EPA has no assurance the program
will be employed as intended.

In followup correspondence, privacy officials provided a copy of a draft privacy policy, the PII
workgroup action plan, and a portion of a Privacy Act program fact sheet. They indicated these
documents contained information on key goals of the Privacy Program. While these documents
did identify some informal goals and activities, none of the items are recognized in OEI’s
mission and function manual for the Records, FOIA, and Privacy Branch.

In addition, EPA had not established performance measures for the informal key goals and
activities in order to monitor the Privacy Program progress. Without such performance
measures, EPA cannot assess the progress of the Privacy Program.

EPA Needs to Update Policy and Establish Change Management and
Distribution Processes

EPA needs to update its Privacy Program policies and establish change management and
distribution processes for these policies. The current Privacy Program policy is outdated and
lacks the specificity needed for duties and responsibilities to be performed uniformly throughout
the Agency. EPA privacy officials are currently in the process of drafting a new comprehensive
privacy policy and associated procedures and these documents should contain some key
components. For example, the new policy and procedures need to provide a consistent means of
conducting the work throughout the Agency. Also, the privacy policy and procedures should not
only describe who is responsible for what at a high level, but should:

   •   Clearly describe lower-level assigned responsibilities (i.e., who is responsible, what
       specifically they are responsible for doing, and how they are expected to do it).
   •   Establish minimum requirements with which all program/regional offices must comply.

In addition, privacy officials did not have a formal process to manage changes in privacy policies
and procedures. It is essential that OEI’s Records, FOIA, and Privacy Branch has formal
processes in place for managing and ensuring that appropriate changes to its privacy policies and



                                                  3

procedures are made in a timely manner (e.g., updates from OMB, changes in regulations, and
changes in roles and responsibilities).

Further, EPA needs to make privacy policies and procedures available to responsible personnel.
Agency privacy officials identified two projects that they envisioned would fulfill this role.
They plan to establish an intranet site that would provide personnel with access to privacy
policies and procedures. Officials also plan to establish a privacy liaison contact within each
EPA program and regional office to ensure key documents are distributed. During our review,
EPA had not accomplished either of these actions. In a followup response, Agency privacy
officials said EPA had delayed development of the intranet site due to issues with funding,
personnel, and emerging office priorities. They plan to implement the site in the first quarter of
Fiscal Year 2008.

EPA Needs to Establish Compliance and Accountability Processes

EPA needs to establish a monitoring process to ensure that managers and employees are
implementing and complying with key tenets of the Privacy Program. Further, the Agency needs
to institute a formal process for holding employees and managers accountable for adhering to
EPA’s policies. EPA’s privacy officials indicated they plan to monitor compliance by:

   •	 Establishing responsibilities for Liaison Privacy Officials to perform oversight at the
      regional and program levels.
   •	 Reviewing Agency forms (both old and new) to ensure the Agency is not collecting
      unnecessary PII.
   •	 Performing reviews via onsite program visits.

However, EPA has not initiated these activities or formally established a target date for their
implementation.

EPA also needs to establish processes to hold employees and managers accountable for
adhering to Agency privacy policies. EPA privacy officials said they plan to establish
accountability through training, applying incident handling reporting policies, and
including a notice to employees of potential sanctions for noncompliance with privacy
policy. However, these methods do not establish a process for holding employees and
managers accountable for adhering to Agency policies. Normally training is a means to
disseminate information rather than hold people accountable. Also, the incident handling
policy does not outline a means to hold Agency employees accountable. Further, the
notice to employees described only addressed instances when Privacy Act information
was actually disclosed to unauthorized personnel. It did not focus on cases where
managers and employees are not following Agency policies and procedures intended to
limit the risk of disclosure, regardless of whether disclosure actually occurred. Also,
these planned methods do not identify processes for linking privacy responsibilities to the
performance plans developed under the Agency’s Performance Appraisal and
Recognition System.




                                                 4

Weaknesses Represent Internal Control Issues

The noted weaknesses are internal control issues within the Privacy Program. According to
OMB Circular A-123, “Management’s Responsibility for Internal Control,” management is
responsible for developing and maintaining internal control systems that comply with the
following standards:

   •	 Control Activities: policies, procedures, and mechanisms in place to help ensure that
      agency objectives are met.
   •	 Information and Communication: information should be communicated to relevant
      personnel at all levels within an organization. The information should be relevant,
      reliable, and timely.
   •	 Monitoring: periodic assessments should be part of management’s continuous monitoring
      of internal control.

In addition, the “Standards for Internal Control in the Federal Government,” issued by the
Government Accountability Office in 1999, indicate that control activities include techniques
and mechanisms for enforcing management's directives. Internal controls include establishing
techniques and mechanisms for holding personnel “accountable” for doing their assigned
responsibilities and complying with management directives. In OMB Circular A-130 and OMB
Memorandum M-07-16, OMB makes it clear that the agency is required to inform and train
managers, supervisors, and employees of their respective responsibilities and the consequences
and accountability for violation of these responsibilities. OMB requires agencies to develop and
implement appropriate policies outlining the rules of behavior and identifying consequences and
corrective actions available for failure to follow rules.

Recommendations
We recommend that the EPA Office of Environmental Information’s Director, Office of
Information Collection:

   1.	 Establish and formally document key goals and activities for OEI’s Records, FOIA, and
       Privacy Branch associated with EPA’s Privacy Program.

   2.	 Establish and track performance measures associated with OEI’s Records, FOIA, and
       Privacy Branch key privacy goals and activities and measure Privacy Program progress.

   3.	 Develop a performance measurement report and share results with the Senior Agency
       Official for Privacy on at least a quarterly basis. Make performance measurement reports
       available to EPA offices responsible for implementing the Privacy Program.

   4.	 Update, implement, and communicate EPA’s privacy policies and procedures and ensure
       they adequately address key tenets of the Privacy Program, including clearly
       communicating:
           a.	 the minimum requirements with which all program/regional offices must comply.
           b.	 the roles and responsibilities of all applicable personnel.


                                               5

           c.	 how the assigned personnel are to specifically perform the work in sufficient
               detail to ensure the work will be conducted consistently throughout the Agency.
           d.	 the consequences to personnel for not complying with policies and procedures.

   5.	 Identify positions/job types with key Privacy Program responsibilities and develop
       appropriate sample cascading goals and objectives that EPA managers can use to
       establish Privacy Program accountability processes within their respective offices.
       Provide the developed guidance to the Office of Human Resources prior to distributing to
       Agency personnel for incorporation into the Agency’s Performance Appraisal and
       Recognition System.

   6.	 Develop, maintain, and publish a roster of Agency personnel designated to fill key
       Privacy Program positions/job types. Make the roster available to EPA personnel.

   7.	 Develop and implement processes for managing EPA privacy policies and procedures to
       ensure they are updated with appropriate changes.

   8.	 Establish a means of making Agency privacy policies and procedures accessible to EPA
       personnel.

   9.	 Establish a monitoring and oversight process to help ensure that managers and employees
       are implementing and complying with the established Agency privacy policies and
       procedures.

We also recommend that the EPA Office of Administration and Resources Management’s
Director, Office of Human Resources:

   10. Incorporate the guidance developed in response to Recommendation 5 within the
       Agency’s Performance Appraisal and Recognition System and publish the guidance on
       the Office of Human Resources’ Performance Appraisal and Recognition System
       Website.

Agency Response and OIG Comments
The Director for the Office of Information Collection concurred with our report findings and
recommendations. The Director indicated plans are in place to address a number of the
recommendations. The Director for the Office of Human Resources indicated the office plans to
work with the Office of Information Collection to develop and make available sample cascading
goals and objectives that EPA managers can use to establish Privacy Program accountability
processes within their respective offices.

Appendix A contains the Director of the Office of Information Collection’s August 28, 2007,
response to our formal draft report, as well the July 19, 2007, response to our discussion draft
report. Appendix B contains the Director of the Office of Human Resources’ response to our
formal draft report.




                                                 6

                           Status of Recommendations and
                             Potential Monetary Benefits

                                                                                                                               POTENTIAL MONETARY
                                              RECOMMENDATIONS                                                                   BENEFITS (in $000s)

                                                                                                                   Planned
Rec.   Page                                                                                                       Completion   Claimed    Agreed To
No.     No.                         Subject                           Status1          Action Official               Date      Amount      Amount

 1      5	    Establish and formally document key goals and             O       Director, Office of Information
              activities for OEI’s Records, FOIA, and Privacy                        Collection, Office of
              Branch associated with EPA’s Privacy Program.                      Environmental Information

 2      5	    Establish and track performance measures                  O       Director, Office of Information
              associated with OEI’s Records, FOIA, and Privacy                       Collection, Office of
              Branch key privacy goals and activities and                        Environmental Information
              measure Privacy Program progress.

 3      5	    Develop a performance measurement report and              O       Director, Office of Information
              share results with the Senior Agency Official for                      Collection, Office of
              Privacy on at least a quarterly basis. Make                        Environmental Information
              performance measurement reports available to
              EPA offices responsible for implementing the
              Privacy Program.

 4      5	    Update, implement, and communicate EPA’s                  O       Director, Office of Information
              privacy policies and procedures and ensure they                        Collection, Office of
              adequately address key tenets of the Privacy                       Environmental Information
              Program, including clearly communicating:
                a. the minimum requirements with which all
                   program/regional offices must comply.
                b. the roles and responsibilities of all applicable
                   personnel.
                c. how the assigned personnel are to
                   specifically perform the work in sufficient
                   detail to ensure the work will be conducted
                   consistently throughout the Agency.
                d. the consequences to personnel for not
                   complying with policies and procedures.

 5      6	    Identify positions/job types with key Privacy             O       Director, Office of Information
              Program responsibilities and develop appropriate                       Collection, Office of
              sample cascading goals and objectives that EPA                     Environmental Information
              managers can use to establish Privacy Program
              accountability processes within their respective
              offices. Provide the developed guidance to the
              Office of Human Resources prior to distributing to
              Agency personnel for incorporation into the
              Agency’s Performance Appraisal and Recognition
              System.

 6      6	    Develop, maintain, and publish a roster of Agency         O       Director, Office of Information
              personnel designated to fill key Privacy Program                       Collection, Office of
              positions/job types. Make the roster available to                  Environmental Information
              EPA personnel.

 7      6	    Develop and implement processes for managing              O       Director, Office of Information
              EPA privacy policies and procedures to ensure                          Collection, Office of
              they are updated with appropriate changes.                         Environmental Information




                                                                            7

                                                                                                                                 POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                                BENEFITS (in $000s)

                                                                                                                     Planned
    Rec.    Page                                                                                                    Completion   Claimed    Agreed To
    No.      No.                         Subject                        Status1          Action Official               Date      Amount      Amount

     8        6     Establish a means of making Agency privacy            O       Director, Office of Information
                    policies and procedures accessible to EPA                          Collection, Office of
                    personnel.                                                     Environmental Information

     9        6     Establish a monitoring and oversight process to       O       Director, Office of Information
                    help ensure that managers and employees are                        Collection, Office of
                    implementing and complying with the established                Environmental Information
                    Agency privacy policies and procedures.

    10        6     Incorporate the guidance developed in response to     O         Director, Office of Human
                    Recommendation 5 within the Agency’s                               Resources, Office of
                    Performance Appraisal and Recognition System                        Administration and
                    and publish the guidance on the Office of Human                 Resources Management
                    Resources’ Performance Appraisal and
                    Recognition System Website.




1    O = recommendation is open with agreed-to corrective actions pending;

     C = recommendation is closed with all agreed-to actions completed;

     U = recommendation is undecided with resolution efforts in progress 





                                                                              8

                                                                                      Appendix A

               OEI’s Office of Information Collection 

                    Responses to Draft Report 

                                        August 28, 2007

MEMORANDUM

SUBJECT:       Response to Draft Audit Report: EPA Needs to Strengthen Its Privacy Program
               Management Controls Assignment No. 2207-000175

FROM:          Mark A. Luttner, Director
               Office of Information Collection

TO:            Rudolph M. Brevard, Director
               Information Resources Management Assessments

      As before, I want to thank you for the opportunity to provide comments on the draft audit
reporting the findings of your review of EPA’s privacy activities (Assignment # 2007-000175).
In addition to the comments I submitted to you on July 19th, 2007, which still stand, I would also
like to add the following:

   1.	 Along with formally establishing the Agency’s National Privacy Program, and
       communicating roles and responsibilities for all Agency employees, EPA’s new Privacy
       Policy will establish accountabilities and consequences for noncompliance and will
       integrate privacy and security oversight responsibilities. This new policy will also
       establish a breach notification response plan to mitigate the risk of harm to individuals if
       a breach should occur. As stated in my earlier response, this policy is expected to be
       implemented in the 1st quarter of FY 2008.

   2.	 In conjunction with the comments we have already submitted regarding your
       recommendation to Update Privacy Policy and Establish Change Management and
       Distribution Processes, I would like to underscore that the Privacy Act Intranet Website
       will also be used as a primary communication tool for the Liaison Privacy Officials
       (LPO’s) network and all Agency employees. The information maintained on this site will
       be used to keep individuals up-to-date on changes in management, policy and procedures.
       Among other things, this site will include: the Privacy Program’s mission and function
       statements, milestones with projected completion dates, rules of behavior, the procedures
       manual for implementation of the Privacy policy, a listing of Privacy Act systems of record
       due for re-evaluation, a listing of onsite system reviews and dates of their next planned
       review, PII breaches, and copies of the quarterly privacy reporting under FISMA.

        Again, I appreciate the opportunity to provide comments on your draft findings. Please
feel free to contact me on 202-566-1628.



                                                  9

                                          July 19, 2007

MEMORANDUM

SUBJECT:	 Response to Draft Discussion Audit Report: EPA Needs to Strengthen Its Privacy
          Program Management Controls (Assignment No. 2207-000175)

FROM: 	        Mark A. Luttner
               Director, Office of Information Collection

TO: 	          Rudolph M. Brevard
               Director, Information Resources Management Assessments
               Office of the Inspector General


     Thank you for the opportunity to provide comments on the draft discussion report on the
findings of your review of EPA’s privacy activities. As mentioned in the draft report, EPA is in
the process of establishing a more comprehensive privacy program. While there remain areas for
improvement, significant strides have been made to protect the personally identifiable
information (PII) in the Agency’s possession. The Agency is aware of its vulnerabilities and is
working to mitigate existing privacy weaknesses with available resources.

    EPA is not unlike many other federal agencies rallying to put measures in place to decrease
and protect its PII collections in the wake of the Veterans Administration’s massive loss of such
PII last year. Recognizing its own vulnerabilities, the Agency established a PII Workgroup in
June 2006 under the Quality and Information Council (QIC) to identify and implement short- and
long-term actions to protect Agency PII from disclosure, including determining the necessity of
existing and new PII collection activities. The workgroup developed an action plan with
milestones and has completed several critical activities which reduce the Agency’s risk to
unauthorized access and disclosure of privacy information.

     When the responsibility for addressing EPA’s privacy activities was transferred to OEI from
the Office of General Counsel in 1999, the function primarily consisted of managing the
Agency’s system of records activities and complying with the 1998 Presidential Order directing
agencies to determine if they were in compliance with specific Privacy Act requirements. The
Privacy Act Officer, appointed in 2000, managed these largely administrative processes.
However, the passage of the E-Government Act of 2002, new FISMA reporting requirements,
OMB E-Government scorecards, and growing concerns with identify theft and other privacy-
related concerns have expanded the role and responsibilities of the Privacy Act Officer and the
need to develop strong internal control structures for protecting privacy information.

      EPA’s new internal control structures, to a large degree, are set forth in its new Privacy
Policy, which we expect to submit to the QIC this quarter. The Policy will bring the necessary
direction, guidance and requirements for safeguarding the collection, use, dissemination and
storage of PII. The overarching Policy formally establishes the Agency’s National Privacy



                                                10

Program, communicates roles and responsibilities for all Agency employees, establishes
accountabilities and penalties, and integrates privacy and security oversight responsibilities. We
expect that the policy will begin to be implemented in the 1st Quarter of FY 2008.

     I am pleased to report that the Agency made significant progress in the past twelve months
addressing many of the weaknesses identified by the OIG in its draft audit report. Many of the
actions to address your recommendations are already underway or nearly completed.
Specifically, the OIG recommended that the Agency:

   •	 Create Program Goals and Activities and Measure Progress.
      The PII Workgroup’s Action Plan itemizes the program’s key goals and activities. We
      agree that performance measures for the major activities are needed to assess the
      progress of the larger program when it is established.

   •	 Update Privacy Policy and Establish Change Management and Distribution 

      Processes. 

      The Agency is currently updating its privacy policy and procedures. The policy describes
      responsibilities at a high level and the accompanying procedures describe these
      responsibilities in more detail and how to perform them. The procedures are being
      coordinated with the OEI Security Staff. The policy and procedures will be made
      available to employees on the Agency’s Privacy Act Intranet Web site when it is deployed
      in the 1st Quarter of FY 2008.

   •	 Establish Compliance and Accountability Process.
      The Privacy Policy defines the roles and responsibilities of Agency offices, senior
      officials, managers and employees. It establishes the requirement for offices to designate
      Liaison Privacy Officials (currently being identified by the programs and regions) to
      support EPA’s management and oversight of its privacy responsibilities. LPOs will
      provide guidance to their offices and day-to-day oversight with respect to Agency privacy
      requirements and initiatives. The LPOs will serve as the Privacy Act Officer’s support
      for ensuring that privacy policies, guidance and related information are broadly
      communicated and will be the points of contact for responding to privacy data calls. The
      Privacy Act Officer will meet with these individuals on a regular basis. The Privacy Act
      Officer and OEI Security Staff will work collaboratively to ensure compliance through
      FISMA reviews and onsite visits. The Privacy Policy will include sanctions for non-
      compliance.

       The PII Workgroup has nearly completed its review of forms to identify unnecessary PII
       elements and has met with OARM representatives to better understand the forms
       management process in order to provide guidance to programs that need to revise forms.

       The PII Action Plan identifies program monitoring as an “ongoing activity”. Onsite
       reviews will begin in the 1st Quarter of FY 2008.




                                                11

        Again, I appreciate the opportunity to provide comments on your draft findings. Please
feel free to contact me or Deborah Williams (566-1659) if you have any questions about this
memorandum.

cc:    	Andrew Battin
       Sara Hisel-McCoy
       Deborah Williams
       Judy Hutt
       Myra Galbreath
       Marian Cody




                                               12

                                                                                 Appendix B

Office of Administration and Resources Management’s 

Office of Human Resources Response to Draft Report 

                                       August 29, 2007

MEMORANDUM


SUBJECT:      Comments on EPA’s Privacy Program Audit Draft Report

                     /s/
FROM:         Kenneth T. Venuto, Director
              Office of Human Resources

TO:           Rudolph M. Brevard, Director
              Information Resources Management Assessments
              Office of the Inspector General

       Thank you for the opportunity to comment on EPA's Privacy Program Audit
Draft Report. The Office of Human Resources recommends the following substitute
language for recommendations #5 and #10 and the "At a Glance" cover page:

Recommendation for #5. "Identify positions/job types with key Privacy Program
responsibilities and develop appropriate samples of cascading goals and objectives that
EPA managers can use to establish Private Act accountability processes within their
respective offices. These samples should be submitted to the Office of Human Resources
for review and approval prior to distributing to appropriate senior executives and
managers for consideration."

"We recommend that the EPA Office of Administration and Resources Management's
Director, Office of Human Resources (OARM/OHR):

Recommendation for #10. "Work with OEI to finalize appropriate sample guidance for
managers to use when implementing performance standards for position/job types with
key Privacy Program responsibilities. The approved guidance should be posted on OEI's
website. For re-enforcement, the link to OEI's website should also be posted on the OHR
Performance Appraisal and Recognition System (PARS) intranet website."

Recommendation for "At a Glance" cover page.

In order to make the "At a Glance" cover page consistent with the above
recommendations for #5 and #10 of the Draft Report, I recommend the following new
language for the last sentence of the "What We Recommend" section:



                                              13

                                                2



“We also recommend that the Office of Environmental Information’s Director, Office of
Information Collection work with the Office of Administration and Resources management’s
Director, Human Resources, to develop appropriate samples of cascading goals and objectives
that EPA managers can use for employees with key Privacy Program responsibilities within their
respective office and to establish appropriate methods to communicate these samples.”

          Again, thank you for the opportunity to comment on EPA’s Privacy program Audit Draft
Report.




                                               14

                                                                             Appendix C

                                   Distribution

Office of the Administrator
Assistant Administrator for Environmental Information
Assistant Administrator for Administration and Resources Management
Director, Office of Information Collection, Office of Environmental Information
Director, Office of Human Resources, Office of Administration and Resources Management
Agency Followup Official (the CFO)
Agency Followup Coordinator
Audit Followup Coordinator, Office of Environmental Information
Audit Followup Coordinator, Office of Administration and Resources Management
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Office of General Counsel
Acting Inspector General




                                            15

